U. S. Department of Agriculture

 Office of Inspector General

         Audit Report




       Food and Nutrition Service
 Child and Adult Care Food Program
 Administration of 2-Percent Funds
         State of California




                    Audit Report No.
                    27601-8-SF
                    MARCH 1999
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL
                                     Western Region - Audit
                                  600 Harrison Street, Suite 225
                              San Francisco, California 94107-1370
                             TEL: 415-744-2851 FAX: 415-744-2871




   DATE:   March 29, 1999

REPLY TO
ATTN OF:   27601-8-SF

SUBJECT:   Child and Adult Care Food Program
           Administration of 2-Percent Funds
           State of California

     TO:   Allen Ng
           Regional Administrator
           Western Region
           Food and Nutrition Service


This report presents the results of our audit of the Child and Adult Care Food
Program, Administration of 2-Percent Funds by the State of California. Your
written response to the draft report is included as exhibit E to the report. For
acceptance of your management decisions on the report’s recommendations, please
provide the information described in the OIG Position sections of the report.

In accordance with Departmental Regulations 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned and the timeframes for
implementation of these recommendations.      Please note that the regulation
requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance.

The Office of the Chief Financial Officer (OCFO), U.S. Department of Agriculture,
has responsibility for monitoring and tracking final action for the findings and
recommendations. Please follow your internal agency procedures in forwarding
final action correspondence to OCFO.

We appreciate the cooperation and assistance provided by your staff during our
audit.




SAM W. CURRIE
Regional Inspector General
  for Audit
                              EXECUTIVE SUMMARY
                         FOOD AND NUTRITION SERVICE
                     CHILD AND ADULT CARE FOOD PROGRAM
                     ADMINISTRATION OF 2-PERCENT FUNDS
                             STATE OF CALIFORNIA
                        AUDIT REPORT NO. 27601-8-SF


                                             This report presents the results of
                                             our   review   of   the  State    of
                  PURPOSE                    California’s    administration    of
                                             Child and Adult Care Food Program
                                             (CACFP) 2-percent funds.       These
                  funds are referred to as 2-percent funds because regulations
                  allow up to an amount equal to 2-percent of the funds expended
                  on the program in each State to be used for audit and review
                  purposes. The funds are made available for the State agency
                  to conduct audits and program reviews of the organizations
                  that participate in the program.1

                  We reviewed the controls over the 2-percent funds expended for
                  audits and administrative reviews by the State agency. The
                  purpose of our audit was to determine if the California
                  Department of Education’s (CDE) use of 2-percent funds was in
                  compliance with applicable laws and regulations.            In
                  California, the Food and Nutrition Service (FNS) Western
                  Regional Office administers the program through an agreement
                  with CDE.

                  CDE expended 2-percent funds totaling $2,137,099 in fiscal
                  year 1995; $2,171,874 in fiscal year 1996; $2,379,399 in
                  fiscal year 1997 and $2,542,189 in fiscal year 1998.

                                          We questioned over $5.5 million of
                                          the 2-percent funds claimed by CDE
            RESULTS IN BRIEF              during fiscal years 1995 through
                                          1998.    These funds were either
                                          ineligible      or    unsupported.
                Approximately $1.6 million was used to pay salaries and
                benefits for administrative review personnel even though all
                required audits had not been completed. The CACFP prohibits
                the State agency from claiming the expenses of administrative
                review personnel before all required audits have been
                completed. During this period, CDE had not completed over 180
                of its required audits of CACFP sponsors.

                  CDE also claimed approximately $3.9 million for personnel
                  costs of auditors who also worked on other non-CACFP programs.
                  It was impossible for us to determine how many hours, if any,
                  were eligible for 2-percent funding.

                  On April 29, 1998, we issued a Management Alert notifying FNS
                  of the inappropriate use of the 2-percent funds. Fiscal Year
                  1998 was not included in the Management Alert.



1
    Effective October 1, 1998, Public Law 105-336 reduced this amount to 1.5 percent.

                                           - i -
                                   FNS should recover $3,916,190 in
                                   unsupported personnel costs and
KEY RECOMMENDATIONS                $1,604,364  in   improper   costs
                                   charged to the CACFP 2-percent
                                   funding.

      In addition, FNS should instruct CDE to establish documented
      procedures to ensure that all required audits are completed
      before charging administrative review costs to 2-percent
      funding. FNS should also instruct CDE to establish documented
      procedures for an equitable distribution of costs between its
      various programs and to maintain adequate support for time
      charged to these programs.

                                In its February 16, 1999, written
                                response to the draft report, FNS
  AGENCY POSITION               agreed with our audit results and
                                recommendations.    The response is
                                incorporated,    along   with   our
      position, in the Findings and Recommendations section of this
      report.    The full text of FNS’ response is included as
      exhibit E.




                          - ii -
TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

  OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

  SCOPE    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

  METHODOLOGY    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS AND RECOMMENDATIONS         . . . . . . . . . . . . . . . . . . . 3

  I.   CDE CHARGED IMPROPER AND UNSUPPORTED COSTS TO 2-PERCENT FUNDS   . . 3

       FINDING NO. 1      CDE Charged Improper Costs to 2-Percent
                          Funding for Administrative Reviewers . . . . . . 3

                          Recommendations . . . . . . . . . . . . . . . . . 5

       FINDING NO. 2      CDE Charged Unsupported Costs to 2-Percent
                          Funding for Audit Staff . . . . . . . . . . . . . 6

                          Recommendations . . . . . . . . . . . . . . . . . 9


EXHIBITS
       A -    SUMMARY OF MONETARY RESULTS . . . . . . . . . . . . . . . .   11

        B -   LOCATIONS VISITED . . . . . . . . . . . . . . . . . . . . .   12

        C -   IMPROPER COSTS CHARGED TO TWO PERCENT FUNDING
              FOR ADMINISTRATIVE REVIEWERS . . . . . . . . . . . . . . .    13

        D -   UNSUPPORTED COSTS CHARGED TO TWO PERCENT FUNDING
              FOR AUDIT STAFF . . . . . . . . . . . . . . . . . . . . . .   14

        E -   FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT   . . . . . . . .   16




                                    - iii -
                             INTRODUCTION


                                          The Child and Adult Care Food
                                          Program (CACFP) is designed to
              BACKGROUND                  ensure that children and senior
                                          citizens in day care facilities
                                          receive nutritious meals. Program
               funding nationwide for fiscal year 1996 was $1.58 billion.
               For fiscal year 1997, the appropriation was increased by about
               10 percent to $1.74 billion.

                The program is administered at the Federal level by the Food
                and Nutrition Service (FNS) and at the State level by a State
                agency, except in Virginia, where it is directly administered
                by FNS.   State agencies administer their programs through
                public or nonprofit sponsoring organizations (sponsors) which
                act as a liaison between the State agency and participating
                day care homes and centers.         Sponsors are ultimately
                responsible for program operations in those facilities.

                Day care facilities participating in the program receive
                reimbursement for meals meeting specified nutritional
                requirements. Facilities eligible to participate include day
                care homes (homes) or child care centers (centers). A home is
                a day care facility located in a private residence.        The
                operator of the home is referred to as the "provider."       A
                child care center is operated by a public or private nonprofit
                organization, is licensed to provide child care, and primarily
                serves pre-school children.      Homes and centers must be
                licensed by a State or local licensing authority.

                Under Title 7 Code of Federal Regulations (CFR) 226.4(h),
                funding is authorized to States specifically for the purpose
                of   conducting  audits   and   administrative  reviews   of
                institutions. To accomplish these audits and reviews, at the
                time of our audit, the CACFP made available to each State
                agency an amount equal to two percent of the CACFP
                reimbursement provided to institutions within the State.
                These funds were designated to pay the cost of required
                organizationwide or program-specific audits of institutions.
                Title 7 CFR 226.6(l) also specifies that State agencies
                perform administrative reviews of sponsors on a periodic
                basis.

                Administrative reviews and audits examine some of the same
                program compliance areas. An administrative review evaluates
                eligibility and meal requirement compliance, and financial and
                meal accountability.     However, an audit is performed in
                accordance with government auditing standards (GAS) and is
                larger in scope than an administrative review.

                The audit funding level to each State agency for a fiscal year
                is based on 2-percent of the State’s CACFP reimbursement
                provided to institutions during the second preceding fiscal
                year. In fiscal year 1997, $17.1 million of 2-percent funds
                were expended nationwide. Of that total, almost $2.4 million
                was expended by the CDE.



USDA/OIG-A/27601-8-SF                                                   Page 1
                                            Our   audit   objective    was   to
                                            determine if CDE’s use of 2-percent
              OBJECTIVES                    funds   was  in   compliance   with
                                            applicable laws and regulations.

                                            We reviewed the controls over funds
                                            expended     for     audits     and
                 SCOPE                      administrative reviews by the CDE
                                            and the allowability of the use of
                                            these funds.

                The CDE was reimbursed for 2-percent fund expenditures
                totaling $2,137,099 in fiscal year 1995; $2,171,874 in fiscal
                year 1996; $2,379,399 in fiscal year 1997; and $2,542,189 in
                fiscal year 1998. These expenditures should have been used to
                conduct audits and administrative reviews of the CACFP.

                We reviewed 100 percent of State personnel costs charged to
                the 2-percent audit funding.     The personnel costs totaled
                $1,260,377 for fiscal year 1995; $1,330,379 for fiscal year
                1996; $1,422,803 for fiscal year 1997; and, at the time of our
                audit, $1,506,994 for fiscal year 1998. We also judgmentally
                selected for review non-personnel, 2-percent fund expenditures
                during fiscal years 1995 through 1998.

                Audit work was performed     from October 1997 through November
                1998 at the FNS Western      Regional Office in San Francisco,
                California and the CDE in   Sacramento, California (see exhibit
                B for a listing of audit    sites).

                The audit was conducted in accordance with the U.S. General
                Accounting Offices’ "Government Auditing Standards (1994
                Revision)."

                                            To accomplish our objectives, we
                                            performed the following steps:
              METHODOLOGY

                   At the FNS Western Regional Office, we reviewed: (1)
                   procedures and guidance provided to CDE, (2) Office of
                   Management and Budget (OMB) Circular A-128 and Single Audit
                   reports to identify previous issues, and (3) management
                   evaluations to determine if FNS adequately monitored CDE
                   expenditures and followed up on reported deficiencies.

                   At CDE, we conducted interviews with officials to determine
                   the State’s oversight and monitoring responsibilities and
                   use of 2-percent funds.

                   We reconciled year end financial reports (SF-269) and
                   reviewed 2-percent fund budgets and determined the
                   appropriateness of 2 percent fund expenditures.         We
                   reviewed 100 percent of personnel costs (obtained from
                   microfiche) and judgmentally selected other administrative
                   costs to determine if they were allowable and supportable.




USDA/OIG-A/27601-8-SF                                                    Page 2
                 FINDINGS AND RECOMMENDATIONS



       I.    CDE CHARGED IMPROPER AND UNSUPPORTED COSTS TO
             2-PERCENT FUNDS

                For fiscal years 1995-1998, CDE improperly used 2-percent
                funds to pay salaries and benefits for administrative review
                personnel even though all required program-specific audits had
                not been completed.      In addition, CDE did not maintain
                adequate support for its charges to the 2-percent fund for
                audit personnel who may have been working on multiple
                programs.

                FNS grants audit funds for the expense of conducting and
                reviewing CACFP audits, and administrative reviews. After all
                required audits have been completed the State agency may use
                any remaining funds to conduct administrative reviews.

                We identified questionable claims totaling approximately $5.5
                million, including improper charges for administrative reviews
                of approximately $1.6 million, and unsupported charges for
                audit personnel of approximately $3.9 million. In total, we
                questioned about 60 percent of the 2-percent funding CDE
                received for fiscal years 1995 through 1998.

                On April 29, 1998, we issued a Management Alert notifying FNS
                of the inappropriate use of the 2-percent funds.          FNS
                responded on May 12, 1998, and issued a letter to the CDE on
                May   11,   1998,   which   summarized   the   findings   and
                recommendations and asked the CDE to begin corrective action.
                In addition, FNS advised CDE of its intent to bill for the
                recovery of the $4 million in questioned costs for fiscal
                years 1995-1997, once this audit report is released. Fiscal
                year 1998 was not included in the Management Alert.

                                        For fiscal years 1995 through 1998,
                                        CDE improperly used 2-percent funds
           FINDING NO. 1                to pay salaries and benefits for
                                        administrative review personnel.
  CDE CHARGED IMPROPER COSTS TO         These    charges    were   improper
      2-PERCENT FUNDING FOR             because CDE had not completed all
                                        its   required   audits  of   CACFP
     ADMINISTRATIVE REVIEWERS           sponsors. The CACFP prohibits the
                                        State agency from claiming the
                                        expenses of administrative review
              personnel before all required audits have been completed. As
              a result, the CDE improperly charged $1,604,364 to the CACFP
              (see exhibit C).

                In addition to the State administrative expense funds that
                States use to pay the normal costs of administering the CACFP,
                State agencies receive 2-percent audit funding for conducting
                audits and administrative reviews of CACFP sponsors and
                centers. The funding level for the 2-percent audit funds is


USDA/OIG-A/27601-8-SF                                                   Page 3
                    limited to 2-percent of the State’s CACFP reimbursement
                    provided to institutions during the second preceding fiscal
                    year. According to FNS regulations the State agency may use
                    any funds remaining after all required audits have been
                    performed to conduct administrative reviews of institutions2
                    (emphasis added).

                    Administrative reviews and audits examine some of the same
                    program compliance areas. An administrative review evaluates
                    eligibility and meal requirement compliance, and financial and
                    meal accountability.     However, an audit is performed in
                    accordance with GAS and is much larger in scope than an
                    administrative review.

                    The CDE reviewers examine a sponsor’s records including
                    participant eligibility, meal claim reimbursement, meal
                    requirements, and license capacity. A limited review of the
                    current year’s budget is also performed. The scope of CDE
                    administrative reviews is always the most recent month for
                    which the sponsor has submitted its final claim. In addition,
                    followup is to be performed for issues identified in the
                    previous administrative review.

                    An audit examines the sponsor’s program and accounting records
                    and an opinion is issued based on the examination. Auditors
                    follow an audit program which details procedures to perform.
                    CDE audits generally consist of examining a sample of program
                    and accounting records for three months of the scope year. In
                    addition, an audit determines the extent and impact of
                    noncompliance issues on meal reimbursement claims.

                    As reported in our Management Alert, dated April 29, 1998, we
                    determined CDE had not completed over 140 of its required
                    program-specific audits of CACFP sponsors. Fiscal Year 1998
                    was not included in the Management Alert. Including fiscal
                    year 1998, CDE had not completed over 180 of its required
                    audits.

                    Program regulations require that all audits must be completed
                    before the costs of administrative review personnel can be
                    charged to 2-percent funding. The audits should be completed
                    and report submitted no later than 13 months after the end of
                    the recipient’s fiscal year unless a longer period is agreed
                    to with the cognizant or oversight agency.3

                    A letter from FNS dated October 14, 1998, also stated that
                    "Costs can only be charged to 2-percent funds when the state’s
                    audit requirement has been performed.     Additionally, audit
                    staff participating in the fiscal portion of CACFP reviews is
                    still considered administrative review activity."4

                    For the 1994-1995 program year, we found no evidence that 68
                    audits from a population of 122 required audits were ever
                    completed.   For the 1995-1996 program year, we found no
                    evidence that 78 audits from a population of 118 required


  2
      7 CFR 226.8(c), dated January 1, 1995.

  3
      OMB Circular A-133, paragraph 15(h), dated March 8, 1990.

  4
      FNS letter dated October 14, 1998, regarding Two Percent Audit Funds.



USDA/OIG-A/27601-8-SF                                                         Page 4
                      audits were ever completed. Lastly, for the 1996-1997 program
                      year, it appeared that 43 audits from a population of 56
                      required audits were not completed.

                      The following chart shows the total administrative review
                      hours and dollars charged to the 2-percent fund:

                          2-Percent
                           Funding       FY 1995       FY 1996       FY 1997       FY 1998     Total

                        Number of
                        Personnel Who
                        Charged                    8             8             7         12            135

                        Administrative
                        Review Hours
                        Charged            14,389        15,205        14,650         8,756       53,000

                        Administrative
                        Review Dollars
                        Charged
                        (Salaries and
                        Benefits)        $429,744      $457,936      $448,086      $268,598   $1,604,364

                      CDE officials told us that administrative review personnel
                      were unaware that auditors had not completed all program-
                      specific audits and were also unaware that they could not
                      charge their time to the 2-percent fund.   We concluded that
                      the CDE should not have charged any expenditures for its
                      administrative   reviews  to   2-percent  funds   because  a
                      significant portion of its audits had not been completed.


           RECOMMENDATION NO. 1a

                      Recover $1,604,364 from the CDE in reviewer costs charged
                      improperly to the CACFP 2-percent fund during fiscal years
                      1995 through 1998.

                      FNS Response
                      In its written response to the draft report, dated February
                      16, 1999, FNS agreed to bill the CDE for the questioned cost
                      within 15 days of receipt of the final audit report.

                      OIG Position
                      To accept FNS’ management decision on this recommendation, we
                      will need a copy of the bill for collection of $1,604,364 from
                      the CDE.


           RECOMMENDATION NO. 1b

                      Instruct the CDE to establish procedures to ensure all
                      required audits are completed, or will be completed during the


      5
        This is the total number of administrative review personnel who charged to the program
over the four years. Some of the same staff charged each year.



   USDA/OIG-A/27601-8-SF                                                                          Page 5
                        required time frames, before charging administrative review
                        salaries to 2-percent funding.

                        FNS Response
                        In its written response to the draft report, dated February
                        16, 1999, FNS stated that "The state is currently developing
                        its Audit Plan for the EAIU [External Audits and
                        Investigations Unit]. FNS has reviewed two drafts to date.
                        This plan addresses issues pertaining to this finding.     A
                        final draft should be issued by March 5. We will follow up
                        with the state to ensure that this plan is effectively
                        implemented and adhered to during our March 8-12 Child
                        Nutrition Management Evaluation.     We will also request
                        periodic reports to be submitted to this office by the EAIU
                        which will allow us to determine the state’s continued
                        compliance."


                        OIG Position
                        To accept FNS’ management decision on this recommendation, we
                        will need to be advised of the date when the CDE expects to
                        implement formal procedures to ensure all required audits are
                        completed, or will be completed during the required time
                        frames, before charging administrative review salaries to 2-
                        percent funding.

                                            CDE  was   unable   to   adequately
                                            support expenses charged to the 2-
               FINDING NO. 2                percent funding for audit personnel
                                            who may have been working on
      CDE CHARGED UNSUPPORTED COSTS         multiple programs.    These charges
         TO 2-PERCENT FUNDING FOR           were unsupportable  because the CDE
                                            did not have an adequate system in
                AUDIT STAFF                 place or a cost allocation plan to
                                            support personnel charges to CACFP
                                            and non-CACFP programs.       As a
                  result, the CDE charged $3,916,109 in unsupported personnel
                  expenses to the CACFP (see exhibit D).

                        OMB Circular A-876, Attachment B, states "Salaries and wages
                        of employees chargeable to more than one program or other cost
                        objective will be supported by appropriate time distribution
                        records.    The method used should produce an equitable
                        distribution of time and effort." In the May 1995 revision,
                        the Circular further states "to be allowable under federal
                        awards, costs must ... be adequately documented."

                        States are awarded 2-percent audit funds, which are         restricted
                        to payment of audit and review costs.7 However, we          found that
                        CDE did not have a system in place or a cost                assignment
                        procedure to adequately support expenses charged             to the 2-
                        percent funding source for audit personnel who were         working on
                        multiple programs.


      6
        OMB Circular A-87 dated February 1985 promulgates cost principles for State, local and
Indian tribal governments.

      7
          7 CFR 226.4(h), dated January 1, 1995.



   USDA/OIG-A/27601-8-SF                                                                  Page 6
                We concluded that members of the audit staff, who were
                involved in audits of multiple programs such as the National
                School Lunch Program, School Breakfast Program, Summer Food
                Program, CACFP, and the Child Development Program did not
                adequately support their time charged to audits of the CACFP.
                While the first four programs are USDA programs, the Child
                Development Program is not a USDA-funded program.

                CDE officials told us that during fiscal year 1996, most of
                the CDE audit staff were devoted to reducing the backlog of
                Child Development Division audits.     We also interviewed a
                number of audit staff employees who were unable to provide us
                with any documentation to support their time charged to the 2-
                percent fund.   In all likelihood, these individuals worked
                some time on CACFP and, therefore, would have been eligible to
                charge some time to 2-percent. It was impossible for us to
                determine how many hours, if any, were eligible for 2-percent
                funding.

                The CDE audit staff submitted monthly time sheets showing the
                number of hours worked on each program. In many instances the
                monthly time sheets were signed by both the employee and the
                supervisor prior to the end of the month. Also, the monthly
                time sheets were preprinted with the 2-percent funding code
                for most of the audit staff. Therefore, unless a staff member
                manually changed the preprinted funding code on the time
                sheet, all time charged would automatically default to the 2-
                percent funding code. We found that for many employees who
                were apparently working on multiple programs, the default code
                was primarily used.

                In January 1998, the audit staff began preparing time sheets
                which show the number of hours worked on each audit. However,
                the time sheets still do not show which program(s) are to be
                charged.    Therefore, it is still impossible for us to
                determine how many hours were eligible for 2-percent funding.

                Some specific examples of questionable charges to CACFP are as
                follows:

                   1. One hundred percent of one audit manager’s time in
                      fiscal year 1996 was charged to the CACFP 2-percent
                      funding code, even though he was primarily responsible
                      for auditing and monitoring the Child Development
                      Program (which is a U.S. Department of Health and Human
                      Service program).

                   2. Another example is that of a retired annuitant who was
                      working exclusively in the Summer Food Service Program
                      Unit in fiscal year 1997 and charged his time to the 2-
                      percent fund. The time sheet was signed by the Summer
                      Food Service Program Unit manager, but we were unable to
                      find any evidence to support the time charged to 2-
                      percent funding.

                   3. One auditor stated that he worked on audits of all
                      nutrition programs, including the CACFP, but he did not
                      formally track his hours spent per program.         This
                      auditor charged 100 percent of his time to the 2-percent
                      fund in fiscal year 1995.      In fiscal year 1996 he
                      charged 88 percent, and in fiscal year 1997 he charged
                      82 percent.



USDA/OIG-A/27601-8-SF                                                   Page 7
                   4. The audit files, maintained at the CDE, include a data
                      entry sheet that indicated the review hours spent on
                      each program.    We found for one audit, an auditor
                      recorded on the data entry sheet that he completed a
                      review of a CPA audit and spent 3.8 hours on CDD and 1
                      hour on the CACFP. However, we could not reconcile this
                      to the auditor’s time sheet because all his time for
                      this day was charged as overtime to the 2-percent fund.

                   5. Two other auditors stated they estimated the number of
                      hours spent on CACFP audits. Another auditor was on
                      sick leave for the first six months of fiscal year 1995
                      (October 1994 - March 1995) and his salary was paid
                      using 2-percent funds. This auditor was also on sick
                      leave for at least the eight months prior to the
                      beginning of fiscal year 1995 (February 1994 - September
                      1994).   However, there were no records available to
                      justify why all his sick leave hours were charged to 2-
                      percent funding.

                   6. Another auditor stated he had been on loan to Adult
                      Education since 1995.     He had worked on some CACFP
                      audits, but did not maintain a tracking system. This
                      auditor charged 1,155 hours, or 56 percent, to the 2-
                      percent fund in fiscal year 1997. In fiscal year 1996
                      he charged 1,311, or 63 percent, and in fiscal year 1995
                      he charged 2,070, or 99 percent.       According to the
                      auditor,   he  believed    the  Child   Nutrition   Food
                      Distribution Division charged Adult Education for his
                      services.

                   The audit manager told us he assigned some of the required
                   program-specific audits to his staff. Required audits not
                   assigned to audit staff were to be completed by a CPA. We
                   found little evidence to indicate that audit staff had
                   actually performed the audits assigned to them.         For
                   example, in program year 1995-1996, we found that the audit
                   staff had only completed 1 of the 20 assigned audits. For
                   program years 1994-1995 and 1996-1997 no audits were ever
                   assigned to the CDE audit staff.

                   In addition, for required audits completed by CPAs, the
                   audit staff were to conduct "desk reviews" of these audit
                   reports. The objectives of a desk review are to (1) assure
                   that audit reports meet applicable reporting standards and
                   OMB Circular A-113 requirements, (2) identify any followup
                   audit work needed, (3) identify reports for potential
                   quality control reviews, and (4) identify issues that may
                   require management attention. However, for program year
                   1996-1997 the CDE only completed 13 of 56 CACFP desk
                   reviews. For program year 1995-1996 they completed 40 of
                   52 CACFP desk reviews and for program year 1994-1995 they
                   completed 54 of 64 CACFP desk reviews.

                   We concluded the CDE did not have an effective allocation
                   system to support activities performed by audit staff
                   members and cannot adequately support its charges to 2-
                   percent funding.

                   The total audit hours, dollars, and the number of personnel
                   who charged 2-percent funding is as follows:




USDA/OIG-A/27601-8-SF                                                   Page 8
                         2-Percent
                          Funding     FY 1995        FY 1996        FY 1997    FY 1998         Total
                       Number of
                       Audit
                       Personnel
                       Who Charged              21             27         32             38            468
                       Audit Hours
                       Charged           29,269         30,088        34,706      43,481         137,544
                       Audit
                       Dollars
                       Charged
                       (Salaries       $830,633       $872,443      $974,717   $1,238,397     $3,916,190
                       and
                       Benefits)




           RECOMMENDATION NO. 2a

                      Recover $3,916,190 from the CDE for unsupported costs charged
                      to the CACFP 2-percent fund during fiscal years 1995 through
                      1998. Collect in full, unless the CDE can fully support the
                      time that the audit staff worked on CACFP audits.

                      FNS Response
                      In its written response to the draft report, dated February
                      16, 1999, FNS agreed to bill the CDE for the questioned cost
                      within 15 days of receipt of the final audit report.




      8
        This is the total number of different audit staff personnel who charged time to the
program over the four year period.



   USDA/OIG-A/27601-8-SF                                                                         Page 9
                OIG Position
                To accept FNS’ management decision on this recommendation, we
                will need a copy of the bill for collection of $3,916,190 from
                the CDE.


      RECOMMENDATION NO. 2b

                Instruct the CDE to prepare and implement a written cost
                assignment procedure to produce an equitable distribution of
                time and effort and maintain adequate support for time charged
                with appropriate time distribution records.

                FNS Response
                In its written response to the draft report, dated February
                16, 1999, FNS stated that "The state has already begun
                developing cost assignment procedures which address this
                finding. We will follow up with the state during our March
                Child Nutrition Management Evaluation to ensure proper
                implementation of these procedures.    We will instruct the
                state, within 15 days of receipt of the final audit, to
                maintain appropriate time and effort records and to
                retroactively apply the cost assignment procedure for Fiscal
                Year 1999."
                OIG Position
                To accept FNS’ management decision on this recommendation, we
                will need to be advised of the estimated completion date of
                the CACFP Management Evaluation which will determine if the
                CDE has developed and implemented an acceptable cost
                assignment procedure.




USDA/OIG-A/27601-8-SF                                                  Page 10
EXHIBIT A -         SUMMARY OF MONETARY RESULTS

   RECOMMENDATION
       NUMBER              DESCRIPTION           AMOUNT          CATEGORY

         1a          Improper Costs Charged to   $1,604,364 Questioned Costs -
                     2-percent Funding for                  Recovery Recommended
                     Administrative Reviewers

         2a          Unsupported Costs           $3,916,190 Unsupported Costs -
                     Charged to 2-percent                   Recovery Recommended
                     Funding for Audit Staff

  TOTAL MONETARY RESULTS                         $5,520,554




                                                               Exhibit A - Page 1 of 1


USDA/OIG-A/27601-8-SF                                                        Page 11
EXHIBIT B -             LOCATIONS VISITED

                       ORGANIZATION/ENTITY                       LOCATION

 FNS Western Regional Office                          San Francisco, California


 California Department of Education (CDE)             Sacramento, California

 Child and Nutrition and Food Distribution Division

    External Audits Unit

    Administrative Services Unit

    Field Services Unit

    Child Care Food Program Unit

    Adult Day Care Food and Special Projects Unit

 Accounting Office

 Information Systems




                                                               Exhibit B - Page 1 of 1


USDA/OIG-A/27601-8-SF                                                          Page 12
EXHIBIT C -         IMPROPER COSTS CHARGED TO TWO PERCENT
                    FUNDING FOR ADMINISTRATIVE REVIEWERS

  Employee      FY 95         FY 96         FY 97        FY 98             Total

     01        $64,890.54    $66,254.18    $66,579.31    $50,545.17       $248,269.20

     02          5,217.86     62,709.06     62,944.35     42,218.46        173,089.73

     03         58,965.18     65,862.94     66,089.13     44,117.78        235,035.03

     04         62,273.68     15,501.97                                     77,775.65

     05         55,635.52     62,193.11     63,713.86     41,357.79        222,900.28

     06         61,019.74     62,299.64     62,548.87     41,738.78        227,607.03

     07         61,150.57     62,531.58     62,684.87     31,667.25        218,034.27

     08         60,591.04                                   774.73          61,365.77

     09                       60,583.10     63,526.07      6,023.21        130,132.38

     47                                                     212.93             212.93

     48                                                    1,045.64           1,045.64

     49                                                    8,659.73           8,659.73

     50                                                     236.16             236.13

    Total     $429,744.13   $457,935.58   $448,086.46   $268,597.60      $1,604,363.77




                                                                 Exhibit C - Page 1 of 1


USDA/OIG-A/27601-8-SF                                                          Page 13
EXHIBIT D -        UNSUPPORTED COSTS CHARGED TO TWO
                   PERCENT FUNDING FOR AUDIT STAFF


  Employee    FY 95       FY 96        FY 97        FY 98             Total
     10       $8,869.65                                                 $8,869.65
     11       66,033.32   $41,312.30   $36,689.68    45,435.67        $189,470.97
     12       17,861.30    16,554.91    22,728.74    20,593.62         $77,738.57
     13       50,873.70    52,325.28    61,505.09    64,692.03        $229,396.10
     14       39,993.03    38,547.09    39,496.79    29,952.50        $147,989.41
     15       21,400.06    19,674.82    25,093.04    32,598.20         $98,766.12
     16       45,243.41                  1,695.84     5,184.43         $52,123.68
     17       31,751.55                                                $31,751.55
     18       41,682.42    52,003.56    58,945.08    62,974.94        $215,606.00
     19       66,508.09    66,773.25    63,625.71    47,971.72        $244,878.77
     20       27,616.17     3,539.04                                   $31,155.21
     21       25,750.61    27,213.12    25,696.73    23,846.12        $102,506.58
     22        3,607.05    20,210.31    19,028.58    51,596.37         $94,442.31
     23       39,190.90    72,972.62    56,788.03    31,908.43        $200,859.98
     24       21,804.15    15,360.74                                   $37,164.89
     25       61,301.12    54,881.22    51,012.90    63,040.26        $230,235.50
     26       35,905.08    48,336.10    50,884.65    48,884.04        $184,009.87
     27       68,153.63    49,886.10    57,134.61    54,107.99        $229,282.33
     28       62,009.77    68,172.04         2.80     9,365.66        $139,550.27
     29       69,447.03    68,638.18    71,102.51    70,672.99        $279,860.71
     30       25,630.84    29,150.85    32,990.82    42,151.66        $129,924.17
     31                    14,920.97    18,355.78    23,085.34         $56,362.09
     32                     3,355.16                                    $3,355.16
     33                    12,260.43    24,699.29     5,323.76         $42,283.48
     34                    15,416.18    21,834.08                      $37,250.26
     35                      805.19       864.30                        $1,669.49
     36                     1,162.78    12,106.79                      $13,269.57
     37                    41,315.74    61,523.20    80,849.21        $183,688.15


                                                             Exhibit D - Page 1 of 2


USDA/OIG-A/27601-8-SF                                                         Page 14
EXHIBIT D -          UNSUPPORTED COSTS CHARGED TO TWO
                     PERCENT FUNDING FOR AUDIT STAFF

  Employee     FY 95         FY 96         FY 97          FY 98              Total
     38                       30,422.22     64,764.21      74,025.33         $169,211.76
     39                        7,233.29     24,478.60        5,145.94         $36,857.83
     40                                      1,443.93      11,543.53          $12,987.46
     41                                     18,860.90      27,548.26          $46,409.16
     42                                     13,439.80      21,290.75          $34,730.55
     43                                      9,603.64      46,098.75          $55,702.39
     44                                     12,184.60      22,062.50          $34,247.10
     45                                      9,958.36      18,733.83          $28,692.19
     46                                      6,177.89      12,399.32          $18,577.21
     51                                                    50,779.00          $50,779.00
     52                                                    21,419.05          $21,419.05
     53                                                    12,733.39          $12,733.39
     54                                                      2,875.46          $2,875.46
     55                                                    35,934.72          $35,934.72
     56                                                      1,129.05          $1,129.05
     57                                                    33,329.40          $33,329.40
     58                                                    23,814.78          $23,814.78
     59                                                      3,298.82          $3,298.82
    Total     $830,632.88   $872,443.49   $974,716.97   $1,238,396.82       $3,916,190.16




                                                                    Exhibit D - Page 2 of 2


USDA/OIG-A/27601-8-SF                                                                Page 15
EXHIBIT E -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                            Exhibit E - Page 1 of 3


USDA/OIG-A/27601-8-SF                                     Page 16
EXHIBIT E -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                            Exhibit E - Page 2 of 3


USDA/OIG-A/27601-8-SF                                     Page 17
EXHIBIT E -      FNS’ WRITTEN RESPONSE TO THE DRAFT REPORT




                                            Exhibit E - Page 3 of 3


USDA/OIG-A/27601-8-SF                                     Page 18
